                                  NOTICE
                                 IG-98-038


    This report contains material legally exempt from release to the public
 under exemption (b)(5) of the Freedom of Information Act, 5 USC 552(b)(5)
 (attorney/client privileged communications). However, NASA has decided
  to make a discretionary release of this material in accordance with policy
issued by President Clinton and Attorney General Reno on October 4, 1993.
W                                                                   September 30, 1998


TO:              DA01/Center Director, Marshall Space Flight Center

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:         Final Report on the Commercial Use of the Santa Susana Field Laboratory
                 Assignment Number A-HA-98-033
                 Report Number IG-98-038


This subject report is provided for your use. Please refer to the executive summary for the overall
audit results. Your comments on the draft report were responsive to our recommendations. We
request that you provide estimated completion dates for recommendations 1 and 3. We consider
recommendations 2 and 4 to be closed.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director for Financial and Environmental Management Audits, at (216) 433-8960, or Ms. Ellen
Norris, Auditor-in-Charge, at (818) 354-9756. We appreciate the courtesies extended to the
audit staff. The report distribution is in Appendix G.

[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
G/General Counsel
H/Acting Associate Administrator for Procurement
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
                                                        IG-98-038


AUDIT
REPORT                           COMMERCIAL USE OF
                               THE SANTA SUSANA FIELD
                                    LABORATORY

                                   SEPTEMBER 30, 1998




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
ADDITIONAL COPIES

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
202-358-1232.

SUGGESTIONS FOR FUTURE AUDITS

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       NASA Headquarters
       Code W
       300 E St., SW
       Washington, DC 20546

NASA HOTLINE

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline by calling
1-800-424-9183, 1-800-535-8134 (TDD), or by writing the NASA Inspector General, P.O. Box
23089, L’Enfant Plaza Station, Washington, D.C. 20026. The identity of each writer and caller
can be kept confidential, upon request, to the extent permitted by law.




ACRONYMS

CSLA           Commercial Space Launch Act
FAR            Federal Acquisition Regulation
MSFC           Marshall Space Flight Center
SSFL           Santa Susana Field Laboratory
TABLE OF CONTENTS
EXECUTIVE SUMMARY........................................................................................................... 1

INTRODUCTION ........................................................................................................................ 3

FINDING AND RECOMMENDATIONS .................................................................................... 4

          MSFC AUTHORIZATION OF RENT-FREE USE ........................................................... 4

APPENDIX A - OBJECTIVES, SCOPE, AND METHODOLOGY ............................................. 12

APPENDIX B - ASSISTANT ADMINISTRATOR FOR PROCUREMENT LETTER................ 14

APPENDIX C - ASSOCIATE GENERAL COUNSEL LETTER ................................................. 19

APPENDIX D - CALCULATION OF RENTAL CHARGES ....................................................... 23

APPENDIX E - MANAGEMENT’S RESPONSE ........................................................................ 25

APPENDIX F - AUDIT RESPONSE TO GENERAL COMMENTS............................................ 29

APPENDIX G - REPORT DISTRIBUTION ................................................................................ 32
                 COMMERCIAL USE OF
         THE SANTA SUSANA FIELD LABORATORY


EXECUTIVE SUMMARY

BACKGROUND      The Rocketdyne Division of Boeing North American, Inc., has
                operated the Santa Susana Field Laboratory (SSFL) facility as a
                Government-owned, contractor-operated facility since 1962.
                Rocketdyne performs rocket engine testing at the SSFL for the Air
                Force, NASA, and other customers. The Federal Acquisition
                Regulation (FAR) and the SSFL facility contract provisions require
                Rocketdyne to pay NASA rent for commercial use of Government-
                owned facilities.

                Rocketdyne’s commercial use of the NASA-owned, SSFL facility
                began when a portion of Rocketdyne’s work under the Air Force’s
                launch vehicle program became commercial. As a result of the
                Commercial Space Launch Act (CSLA) of 1984, the Air Force
                began expanding its procurements to include launch vehicles
                intended for commercial use.       The CSLA promotes the
                commercialization of launch vehicles by facilitating and
                encouraging private sector use of Government-developed space
                technology. Rocketdyne’s commercialization effort at the SSFL
                has been performed under subcontracts with McDonnell Douglas
                and General Dynamics (subsequently renamed Martin Marietta and
                currently called Lockheed Martin), the Air Force’s prime
                contractors for the Delta and Atlas/Centaur launch vehicles.
                Rocketdyne subcontracts began in January 1986 and May 1989,
                respectively.


OBJECTIVES      The overall objective of the audit was to determine whether the
                Agency has been receiving adequate reimbursement for
                commercial use of NASA-owned SSFL facilities. Specifically, we
                determined whether:




                                 1
                                           •    Rocketdyne received reimbursement from its
                                                commercial customers associated with the commercial
                                                use of the facility;
                                           •    NASA authorized Rocketdyne’s use of the facility for
                                                commercial business; and
                                           •    Rocketdyne adequately reimbursed NASA for
                                                commercial use of the facility.

                                   Additional details on the audit scope and methodology are in
                                   Appendix A.


RESULTS OF AUDIT                   Rocketdyne had not received reimbursement from its commercial
                                   customers associated with the commercial use of the facility.
                                   Rocketdyne’s contracts with these customers did not include rental
                                   costs.

                                   The Marshall Space Flight Center (MSFC) inappropriately
                                   authorized Rocketdyne to use NASA-owned facilities at the SSFL
                                   on a rent-free basis for commercial business, rather than charging
                                   Rocketdyne rent.1 NASA’s Assistant Administrator for
                                   Procurement notified MSFC that the authorizations were
                                   inconsistent with NASA Headquarters policy; however, MSFC did
                                   not revise them. MSFC allegedly never received the notification
                                   from the Administrator. As a result, Rocketdyne has not
                                   adequately reimbursed NASA for its commercial use of the facility.
                                   NASA could collect about $3.1 million in rent from Rocketdyne
                                   through the year 2003.2


RECOMMENDATIONS                    We recommend that MSFC withdraw its existing authorizations
                                   and contract provisions, charge Rocketdyne rent for its future
                                   commercial use, and recover rent for past commercial use.


MANAGEMENT                         Management concurred with our recommendations.
RESPONSE



1
  We identified this condition during the audit of “Cost Sharing for Santa Susana Field Laboratory Cleanup
Activities,” (Report No. IG-98-024, dated August 18, 1998).
2
  Because Air Force programs may have been similarly affected, we have referred this issue to the Department of
Defense Inspector General.
                                                        2
INTRODUCTION
               The SSFL, in eastern Ventura County, California, is divided into
               four areas (Areas I, II, III, and IV). Although Rocketdyne owns
               the majority of the facility, NASA owns a portion of the facility,
               including Area II, which includes several buildings and four rocket
               engine test stands. NASA acquired its portion of the SSFL from
               the Air Force in 1973 for use on various contracts, including the
               most recent Space Shuttle Main Engine program. The Air Force
               owned Area II before 1973. However, in 1962, the Air Force and
               NASA entered into an agreement for joint use of the facility.
               Since 1962, NASA has provided the facility to Rocketdyne
               through two separate facility contracts for its use in performing
               NASA contracts. MSFC, Huntsville, Alabama, manages the
               NASA facility contracts.




                                 3
FINDING AND RECOMMENDATIONS

MSFC                                The MSFC improperly authorized Rocketdyne to use NASA-
AUTHORIZATION OF                    owned SSFL Area II facilities on a rent-free basis in support of
RENT-FREE USE                       Rocketdyne’s commercial launch vehicle effort. In addition, MSFC
                                    files do not adequately document its authorizations. MSFC
                                    inappropriately based its authorizations on the CSLA of 1984,
                                    which essentially provides rent-free use of launch property to
                                    support the commercialization of launch vehicles. However, the
                                    Area II facilities are production-type property and, therefore, do
                                    not fall under the CSLA definition of launch property. Instead,
                                    they fall under the FAR. NASA could collect about $3.1 million
                                    from Rocketdyne for commercial use of the SSFL through the year
                                    2003.


Contractual Requirements            FAR Part 45 provides policies and procedures for contractor use
and FAR Guidelines                  of Government-owned property.           Part 45.102 states that
                                    contractors ordinarily use their own property to perform
                                    Government contracts. Yet in some circumstances, addressed by
                                    FAR 45.302, the Government provides property to contractors.
                                    When providing Government-owned property, contracting officers
                                    must eliminate any competitive advantage that might arise from the
                                    contractor’s use of the property. FAR 45.201 states that this is
                                    done by adjusting the contractor’s offer by applying an evaluation
                                    factor equal to the rent that would have been charged. FAR
                                    45.202-2 and 45.203 state that the competitive advantage is to be
                                    eliminated by charging rent if the application of the evaluation
                                    factor is impractical or the contract has already been awarded.
                                    However, FAR 45.404(c) states that rent-free use can be provided
                                    if the contracting officer has obtained adequate consideration.3
                                    FAR 45.401 provides that, in general, Government use is rent-free,
                                    and non-Government use is on a rental basis.

                                    MSFC’s two facility contracts, NAS8-5609(F), effective in August
                                    1962, and NAS8-39236(F), effective in July 1992, both contain the
                                    “Use and Charges” clause. This clause, prescribed by FAR
                                    45.302-6(c), states that the terms of the contractor’s use of
                                    Government-owned facilities, whether on a rental or rent-free
                                    basis, must either be authorized by the contracting officer in

3
    Consideration can mean reduced contract price or other compensation.
                                                         4
                          writing or be specified in contracts. Consistent with this clause,
                          both contracts contain specific provisions allowing the contractor
                          rent-free use of the Area II facilities for certain production
                          contracts and for other contracts as authorized in writing by the
                          contracting officer or his authorized representative.


MSFC Approves Rent-       Because Rocketdyne’s past launch vehicle effort was strictly for
Free Use for Commercial   the Government, Rocketdyne’s use of the Area II facility was on a
Business                  rent-free basis. Yet MSFC officials continued to authorize
                          Rocketdyne’s rent-free use when its commercial work began in
                          the late 1980’s. The MSFC contracting officer cognizant over the
                          facility contract and his authorized representative provided the
                          first series of authorizations. These authorizations were provided
                          from 1987 through 1990, covering various contract performance
                          periods from August 1987 through December 1993.

                          The authorizations allowed Rocketdyne’s rent-free use for
                          commercial business, except for one authorization issued by the
                          contracting officer in 1988. That authorization allowed use on a
                          rental basis for the contract performance period of December
                          1989 through February 1992. However, the NASA Resident
                          Office Manager, a delegated representative of the contracting
                          officer, for the same period, issued subsequent rent-free use
                          authorizations to Rocketdyne. As a result, the rental basis
                          authorization was essentially superseded.

                          Rocketdyne’s Director of Contracts and Pricing told us that
                          Rocketdyne did not pay rent since the Government received
                          benefits in the form of facility upgrades and reduced engine system
                          prices.    However, we found no documentation evidencing
                          NASA’s acceptance of these benefits as consideration received in
                          lieu of rent. The NASA Resident Office Manager, however,
                          stated in a December 1990 internal memorandum that the
                          Government is receiving a price break on launch services, based
                          on the rent-free use of the Government facilities. Yet, he made
                          no contact with NASA procurement officials responsible for
                          procuring launch vehicle services to determine whether NASA, in
                          fact, received price breaks.

                          In late 1990, MSFC officials began to take the position that the
                          commercial use of Area II was covered under the authority of the
                          CSLA. In August 1991, MSFC issued two rent-free use

                                            5
                                   authorizations on the basis of the CSLA. MSFC’s Assistant
                                   Director for Policy and Review issued the authorizations, with the
                                   concurrence of MSFC’s Center Director, Procurement Officer,
                                   and Assistant Chief Counsel, among other MSFC officials.

                                   The authorizations were not directed to Rocketdyne, but to its
                                   prime contractors, General Dynamics and McDonnell Douglas in
                                   accordance with their CSLA agreements with NASA. In 1987
                                   and 1988, respectively, NASA Headquarters signed agreements
                                   with these two prime contractors in support of the commercial
                                   Atlas/Centaur and Delta launch vehicle programs. However, the
                                   General Dynamics CSLA agreement was not consistent with the
                                   CSLA, because the agreement included production facilities,
                                   including the SSFL Area II facilities. Yet, the CSLA is applicable
                                   only to launch property.         Nonetheless, NASA renewed the
                                   agreement with General Dynamics in 1993 and removed all
                                   references to production facilities, including Area II.

                                   MSFC made reference to the agreements with the two prime
                                   contractors in the current facility contract with Rocketdyne upon
                                   its execution in July 1992. Section G.7 of NASA Contract NAS8-
                                   39236(F) states that Rocketdyne is authorized to use the facility
                                   on a rent-free basis for commercial launch vehicle production
                                   covered under current NASA agreements. As a result,
                                   Rocketdyne is still using the authorizations as current authority for
                                   rent-free use.


The Commercial Space              The CSLA (originally 49 U.S.C. 2601-23, now 49 U.S.C. 701)
Launch Act                        allows agencies to provide the use of Government launch property
                                  and/or launch services in support of commercial space launch
                                  activities.4 The CSLA does not specifically authorize rent-free use.
                                  Section 70111(b) (originally 2614(b)(1) of the CSLA) requires
                                  reimbursement of direct costs that are unambiguously associated
                                  with the commercial launch effort and that the Government would
                                  not incur if there was no commercial launch effort. The Use and
                                  Charges clause in NASA’s facility contract with Rocketdyne bases
                                  the rent calculation on NASA’s acquisition cost of the facility. In
                                  May 1998, NASA’s Associate General Counsel (Commercial) told
                                  us that NASA does not allocate its facility acquisition cost on a

4
 Section 2603(3) of 49 U.S.C. defines launch property as “propellants, launch vehicles and components thereof,
and other physical items constructed for use in launch preparations or launch of a launch vehicle.”
                                                       6
                         per-use basis. Therefore, the Agency cannot unambiguously
                         associate that cost with its users. In addition, a March 1993
                         guidance letter issued by NASA’s Associate General Counsel
                         (Contracts) also stated that, in practice, facility wear and tear costs
                         resulting from commercial use are often minimal. Therefore, the
                         CSLA essentially provides rent-free use of launch facilities.


NASA Headquarters        In December 1992, NASA’s Assistant Administrator for
Position on Use of the   Procurement issued a letter to the MSFC Procurement Officer,
SSFL                     stating that the August 1991 authorizations are inconsistent with
                         NASA Headquarters policy (see Appendix B). The Assistant
                         Administrator’s letter stated that the CSLA applies only to launch
                         property and, therefore, does not include production facilities.
                         Because the Area II facility is a non-CSLA facility, its use should
                         be charged under the Use and Charges Clause of the FAR. The
                         Assistant Administrator requested MSFC to review the
                         authorizations and either revise or withdraw them. The Assistant
                         Administrator added that the authorization of rent-free use for
                         commercial purposes is unusual and that justification should be
                         well documented.

                         The Assistant Administrator for Procurement also took exception
                         to MSFC issuing the authorizations to the Air Force’s prime
                         contractors, rather than to Rocketdyne through its facility contract
                         provisions. Specifically, the Assistant Administrator pointed out
                         that there is no direct use of the facilities by either of the prime
                         contractors and that NASA has no direct contractual relationship
                         with the two contractors. In addition, NASA cannot provide the
                         facility to the prime contractors, as the facility is accountable to
                         Rocketdyne under the facility contract and, therefore, is not in
                         NASA’s possession.

                         In March 1993, NASA’s Associate General Counsel (Contracts)
                         issued guidance to all NASA Installation Chief Counsels (see
                         Appendix C). The purpose of the guidance was to provide a
                         “consistent interpretation and application of authorities for making
                         NASA property available to contractors engaged in commercial
                         launch activities.” The guidance provides a clear definition of the
                         CSLA term “launch property.”            The guidance states that
                         production property was deliberately omitted from the CSLA’s
                         definition of launch property, because FAR guidelines cover the
                         commercial use of this type of property. The Associate General

                                            7
                         Counsel’s guidance states that production property cannot be made
                         available under the authority granted by the CSLA. Instead, the
                         contractor must pay rent in accordance with the Use and Charges
                         clause.

                         MSFC officials have not revised or withdrawn the rent-free
                         authorizations to Rocketdyne, claiming that they had not received
                         the Assistant Administrator for Procurement’s December 1992
                         letter. Officials from the Assistant Administrator’s office stated
                         that they did not recall receiving a reply from MSFC. In addition,
                         MSFC officials claim they had no knowledge of the Associate
                         General Counsel’s 1993 guidance.


Unfair Competitive       Because MSFC did not charge rent for Rocketdyne’s commercial
Advantage                use of Area II, Rocketdyne and its prime contractors may have
                         received an unfair competitive advantage from their use of the
                         Government property. We estimated Rocketdyne’s cost savings
                         associated with the rent-free use at about $3.1 million (see
                         Appendix D).

                         This savings could have affected both Rocketdyne’s and its prime
                         contractors’ ability to win commercial launch vehicle contracts. In
                         accordance with FAR, contracting officials should have eliminated
                         any competitive advantages gained by the rent-free use of the
                         Government-owned property. Because the launch vehicle program
                         is procured under Air Force contracts, we do not have insight into
                         whether competitive advantages were eliminated. As a result, we
                         have referred the matter to the Department of Defense Inspector
                         General.


Contract Files at MSFC   The official facility contract files at MSFC contain no
                         documentation on the authorizations for Rocketdyne’s rent-free
                         use of the SSFL. As a result, we had to obtain the majority of the
                         documentation from Rocketdyne and from MSFC’s Legal Office.
                         However, because those files are not the official files, we cannot be
                         assured that the documentation we received is complete.

                         The FAR requires the contracting officer and his representatives to
                         adequately document decisions in the facility contract files. FAR
                         4.801 requires sufficient documentation to provide a basis for
                         informed decisions, to support actions taken, to provide

                                           8
                   information for reviews and investigations, and to furnish essential
                   facts in the event of litigation or congressional inquiries. FAR
                   4.805(b) prescribes minimum retention periods for 13 types of
                   documents.      Although FAR does not specifically describe
                   documents pertaining to the contractor’s use of a Government
                   facility, FAR 4.805(b)(11) requires that documents other than
                   those specified are to be retained for at least 6 years and 3 months
                   after final payment of the contract. In this case, final payment on
                   facility contract NAS8-5609(F) has not yet been made, and
                   contract NAS8-39236(F) is still current.


Conclusion         The rent NASA should have received by Rocketdyne for its
                   commercial use of the Area II facilities is significant. In 1990,
                   Rocketdyne estimated the rental value at $420,000 for a 5.5 year
                   Delta performance period, and a 2-year Atlas/Centaur performance
                   period. Rocketdyne based this estimate on a 36 percent Delta
                   commercial share and a 25 percent Atlas/Centaur commercial
                   share.      However, since Rocketdyne’s 1990 estimate, the
                   performance period has expanded to 14 and 17 years and the
                   commercial share has increased to 57 and 60 percent, for the two
                   programs, respectively. As a result, we recalculated an estimated
                   rent to reflect these changes (see Appendix D). We estimated that
                   the rent associated with Rocketdyne’s commercial Delta and
                   Atlas/Centaur use of the Area II facility is about $3.1 million for
                   the entire launch vehicle production period. These funds could be
                   put to better use if NASA collects rent associated with
                   Rocketdyne’s commercial use of the Area II.


RECOMMENDATION 1   The Director, MSFC, should withdraw existing authorizations and
                   contract provisions, eliminating the CSLA as the authority for rent-
                   free use of the NASA-owned Area II facilities.

MANAGEMENT’S       Concur. The MSFC Center Director or authorized delegate will
RESPONSE           ensure that any improper authorizations currently in effect, which
                   site the CSLA as authorization for rent-free use of the NASA-
                   owned Area II facilities are withdrawn. The complete text of
                   management’s comments is in Appendix E.




                                     9
EVALUATION OF      MSFC’s planned action is responsive to the recommendation.
MANAGEMENT’S       Although management’s response refers to authorizations, it is not
RESPONSE           clear that the response also covers contract provisions. We believe
                   that facility contract provisions should also be revised to remove
                   references to the CSLA, because the CSLA is not applicable to any
                   of the SSFL facilities under the NASA facilities contract.

RECOMMENDATION 2   The Director, MSFC, should charge Rocketdyne rent for its future
                   commercial use of the NASA-owned Area II facilities, in
                   accordance with FAR.

MANAGEMENT’S       Concur. The contracting officer will ensure that rent or other
RESPONSE           adequate consideration is received from Rocketdyne for its future
                   use of the NASA-owned Area II facilities.

EVALUATION OF      MSFC’s planned action is responsive to the recommendation.
MANAGEMENT’S
RESPONSE


RECOMMENDATION 3   The Director, MSFC, should pursue recovery of rent for
                   Rocketdyne’s past commercial use of the NASA-owned Area II
                   facilities.

MANAGEMENT’S       Concur. The contracting officer will take recovery action with
RESPONSE           respect to unauthorized use of Government facilities. However,
                   management noted that any legal basis to collect rent for use of
                   production facilities during the period that the Government
                   authorized use under the CSLA is at best tenuous. The report
                   suggests that there is evidence the Government may have received
                   consideration in exchange for use of the production facilities. Prior
                   to seeking recovery of rent, an analysis will have to be
                   accomplished to determine whether adequate consideration was, in
                   fact, obtained by the Government. In the event that it is
                   determined adequate consideration was not obtained, recovery
                   action will be undertaken.

EVALUATION OF      MSFC’s planned action is responsive to the recommendation. We
MANAGEMENT’S       agree that such an analysis is essential to MSFC’s recovery
RESPONSE           process. We suggest that the analysis be promptly completed by
                   the contracting officer so that recovery efforts can take place as
                   soon as possible.

                                    10
RECOMMENDATION 4   The Director, MSFC, should direct MSFC to document and retain
                   its official contract files as prescribed by the FAR.


MANAGEMENT’S       Concur. The Director, MSFC, will ensure that the MSFC official
RESPONSE           contract files are documented and retained as prescribed in
                   accordance with the FAR.

EVALUATION OF      MSFC’s planned action is responsive to the recommendation.
MANAGEMENT’S       Additionally, Appendix F contains other comments from
RESPONSE           management concerning the presentation of the finding and our
                   responses to those comments.




                                  11
Appendix A
             OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES          The overall objective of the audit was to determine whether
                    NASA has been receiving adequate reimbursement for commercial
                    use of NASA-owned SSFL facilities. Specifically, we determined
                    whether:

                           •   Rocketdyne received reimbursement from its
                               commercial customers associated with the commercial
                               use of the facility.
                           •   NASA authorized Rocketdyne’s use of the facility for
                               commercial business.
                           •   Rocketdyne adequately reimbursed NASA for use of
                               the facility for commercial business.


SCOPE AND           We reviewed both Agency and Rocketdyne records associated
                    with the commercial use of the SSFL facilities. The records
METHODOLOGY         included facility contracts NAS8-5609(F), effective in August
                    1962, and NAS8-39236(F), effective in July 1992, and their
                    associated contract files; Rocketdyne requests and agency
                    authorizations for facility use; and Rocketdyne solicitations for its
                    commercial work. We also reviewed applicable laws and
                    regulations, including the FAR and the CSLA.

                    We interviewed officials at MSFC, including officials of the Chief
                    Counsel’s Office, Chief Financial Officer’s Office, past and present
                    procurement officers, contracting officers, and other officials who
                    had authorized Rocketdyne’s use of the SSFL. At Rocketdyne,
                    we interviewed the Director of Contracts and Pricing and the
                    Property Administrator. We also interviewed Defense Contract
                    Management Command contract administration officials. At
                    NASA Headquarters, we interviewed the Deputy Director and
                    Senior Procurement Analyst from the Office of the Director of
                    Procurement, members of the General Counsel’s office, and the
                    Director of Expendable Launch Vehicle Requirements from the
                    Office of Space Flight.




                                      12
MANAGEMENT         We reviewed MSFC’s process for authorization of commercial use
                   of Government property to determine whether controls were
CONTROLS           adequate to ensure conformance with appropriate laws and
REVIEWED           regulations. In general, we found that MSFC’s controls need
                   improvement, based on the finding addressed in this report.


AUDIT FIELD WORK   We performed field work from April through June 1998 at
                   Rocketdyne’s De Soto and Canoga facilities and at MSFC. The
                   audit was performed in accordance with generally accepted
                   Government auditing standards.




                                   13
Appendix B
  ASSISTANT ADMINISTRATOR FOR PROCUREMENT LETTER




                        14
Appendix B (Continued)




                         15
Appendix B (Continued)




                         16
Appendix B (Continued)




                         17
Appendix B (Continued)




                         18
Appendix C
             ASSOCIATE GENERAL COUNSEL LETTER




                            19
Appendix C (Continued)




                         20
Appendix C (Continued)




                         21
Appendix C (Continued)




                         22
Appendix D
                       CALCULATION OF RENTAL CHARGES

In 1990, Rocketdyne performed an estimated rental calculation, preceding MSFC’s 1991 decision
to authorize rent-free use of the SSFL Area II facility under the authority of the CSLA. At that
time, Rocketdyne based its calculation on an estimated commercial business percentage and
performance period for the Atlas Centaur and Delta programs. Rocketdyne did not subsequently
recalculate the estimate, even though the commercial percentages increased significantly and the
performance periods have been extended. In June 1998, Rocketdyne provided us with updated
commercial percentages and performance periods. Using Rocketdyne’s 1990 calculation, we
recalculated rent attributable to the commercial programs using the increased commercial
percentage and extended performance periods. The chart shows both Rocketdyne’s and our
estimates:


                                             Annual Commercial Rent
                      Comm'l
                                      $152.9K
                                                          $57.5K
                        60%

                        50%
                                                                          1990 Rocketdyne
                                                    $36.7K                Estimate
                        40%
                                                                          Our Estimate
                        30%      $62.7K

                        20%

                        10%

                         0%
                                     Atlas              Delta




The details of Rocketdyne’s and our calculations are as follows:

Commercial Atlas/Centaur Program
  1990 Rocketdyne Estimate: Rocketdyne estimated that the total Atlas rental expense (for
  both Government and commercial use)5 for a 66-month period was $1,401,866 (which
  equates to $254,885 annually). Rocketdyne estimated the commercial percentage for this
  period from March 1989 through December 1995 to be 24.59 percent. As a result,
  Rocketdyne’s calculated rent for its commercial Atlas program for the 66-month period
  totaled $344,719 (which equates to $62.676 annually).


5
  Rocketdyne calculated the estimated rental expense using labor hours, acquisition value of property, and FAR
rental rate specified in the Use and Charges Clause of NASA’s contract NAS8-39236(F) with Rocketdyne.
                                                       23
Appendix D (Continued)

•   Our Estimate: We recalculated the rental expense attributable to Rocketdyne’s commercial
    Atlas use, using Rocketdyne’s 1990 estimated rental expense, but applying Rocketdyne’s
    1998 estimated commercial share and extended performance period. According to
    Rocketdyne, 60 percent of its engines are attributable to the commercial Atlas program for the
    entire program performance period of May 1989 through September 2003.6 Applying this 60
    percent to Rocketdyne’s estimated annual rental expense of $254,885, we estimated the
    annual rent attributable to the commercial Atlas program at $152,931.7 For the 14-year
    performance period, we estimated the rent at $2,141,034.

Commercial Delta Program
• 1990 Rocketdyne Estimate: Rocketdyne estimated that the total Delta rental expense (for
  both Government and commercial use, see footnote 5) for a 25-month period was $210,313
  (which equates to $100,950 annually). Rocketdyne estimated the commercial percentage for
  this period from May 1988 through January 1991 to be 36.36 percent. As a result,
  Rocketdyne’s calculated rent for its commercial Delta program for the 25-month period
  totaled $76,470 (which equates to $36,706 annually).
• Our Estimate: We recalculated the rental expense attributable to Rocketdyne’s commercial
  Delta use, using Rocketdyne’s 1990 estimated rental expense, but applying Rocketdyne’s
  1998 estimated commercial share and extended performance period. According to
  Rocketdyne, 57 percent of its engines are attributable to the commercial Delta program for
  the entire program performance period of January 1986 through the year 2002.6 Applying this
  57 percent to Rocketdyne’s estimated annual rental expense of $100,950, we estimated the
  annual rent attributable to the commercial Delta program at $57,542.7 For the 17-year
  performance period, we estimated the rent at $978,214.

The following table shows a summary of our estimate:

          Program:            Period of Performance             Commercial %            Estimated Rent
          Atlas/Centaur       May 1989 - Sept. 2003             60%                     $2,141,034
          Delta               January 1986 - 2002               57%                     $978,214
                                                                Total:                  $3,119,248




6
  Rocketdyne’s 1998 estimated commercial share percentage is an average over the entire performance period.
Percentages for individual years varied, ranging from approximately 25 percent in earlier years to as much as 73
percent in later years.
7
  Our estimated annual rent does not consider any changes in the factors Rocketdyne used to estimate its rental
expense. In addition, our estimated annual rent is an annual average; rental rates for each year may vary,
depending on the actual commercial percentage for a particular year.

                                                        24
Appendix E
             MANAGEMENT’S RESPONSE




                      25
Appendix E (Continued)




                         26
Appendix E (Continued)




Note: Management’s reference above to page 8 is now page 7 in the final report.

                                              27
Appendix E (Continued)




                         28
Appendix F
              AUDIT RESPONSE TO GENERAL COMMENTS
MSFC management provided the following general comments in its response to our draft report.
Our responses to the comments are also presented.

Management’s Comments. At the point in time that rent free use was authorized by MSFC, the
 Center was operating under the then current interpretation of the CSLA. In fact, the underlying
 CSLA Agreement executed by NASA Headquarters included production facilities. Section G.7
 of the July 1992 NASA Facilities Contract authorized use on a rent-free basis for commercial
 launch vehicle production covered under current NASA agreements.

Audit Response: First, we found no indication that MSFC’s authorizations provided from 1987
 through 1990 were based on the authority of the CSLA. It was not until August 1991 that
 MSFC officials based their authorizations on the CSLA and NASA Headquarters’ agreements.
 Although NASA’s agreements at that time were inconsistent with the CSLA, they also
 contained language that acknowledged the requirement that NASA comply with public law and
 Agency policy when making facilities available. In making the Area II facilities available, MSFC
 is likewise constrained by those requirements. To the extent that the MSFC authorizations were
 inconsistent with a correct interpretation of the CSLA and the FAR, NASA did not have the
 authority to extend the authorizations.

 Section G.7 of the current facility contract arguably authorizes rent-free use for the Area II
 facilities from July 1992 through the expiration of the original NASA agreements. However,
 NASA entered into new CSLA agreements in 1993, removing all references to production
 facilities. Therefore, after 1993, Rocketdyne’s use of the Area II production facilities no longer
 fell under the portion of the clause that authorizes rent-free use pursuant to current NASA
 agreements. Instead, use of the production facilities falls under the last sentence of the clause,
 which states:

       Rent bearing use on commercial contracts not covered under the Commercial Space
       Launch Act may also be authorized in the same manner with rent calculated as shown in
       FAR.

 Therefore, after 1993, MSFC’s authorizations are not only contrary to law (as noted
 previously), but are also inconsistent with the terms of the current facility contract.




                                                29
Appendix F (Continued)

Management’s Comments: The MSFC Chief Counsel reviewed the 1993 letter issued by the
 General Counsel’s Office. There is no indication that it was or was not further disseminated
 outside the Office of Chief Counsel. It is not true that NASA’s Office of General Counsel
 notified MSFC that the authorizations were inappropriate. The NASA General Counsel’s
 Office did issue guidance to all Offices of Chief Counsel which analyzed the CSLA and
 concluded that CSLA did not include production equipment. The guidance referred to
 agreements at more than one Center, noted the diverse interpretations of the CSLA, and did not
 single out the MSFC agreements as inappropriate. After reading the Associate General
 Counsel’s letter, MSFC agrees that the CSLA does not apply to production equipment.
 However, at the time that rent-free use was authorized, this was not the current interpretation.
 It should also be noted that the MSFC Chief Counsel concurred in the original authorization.

Audit Response: The “Results of Audit” section of our report has been corrected, referring to
 the December 1992 Assistant Administrator for Procurement letter rather than to the March
 1993 Office of General Counsel’s guidance. It was the December 1992 letter that directly
 addressed the issue at MSFC, stating that MSFC’s authorizations were inconsistent with NASA
 Headquarters policy.

Management’s Comments: The report references Federal guidelines pertaining to a competitive
 advantage that may be obtained by a contractor receiving rent-free use of Government facilities.
 These citations deal with competitive advantage on Government procurement competitions. As
 a result, to the extent that the rent-free issues at hand pertain to private commercial efforts,
 these references do not appear applicable. Additionally, it is understood that there was
 domestic competition for the launch weight classes of the Delta or Atlas launch vehicles and, as
 a result, the applicability of an unfair competitive advantage issue is even more remote.

Audit Response: As stated in the “Background” paragraph in the Executive Summary, the
 commercial launch vehicle production activity was included in Air Force procurements.
 Therefore, FAR citations that deal with competitive advantage on Government procurement
 competitions are applicable to the use of Government facilities addressed in this report. In any
 event, we have referred this issue to the Department of Defense Inspector General for review.

Management’s Comments: The report states inaccurately that the authorizations were provided
 starting in 1987 instead of in 1986.

Audit Response: We understand the difference in dates is attributable to an MSFC authorization
 dated October 30, 1986, that we did not include in our finding. Although neither MSFC nor
 Rocketdyne had a copy of the authorization letter, Rocketdyne told us that this authorization
 was in response



                                                30
Appendix F (Continued)

 to a prior October 1, 1986, Rocketdyne rent-free use request, which unlike subsequent requests,
 did not indicate that commercial use was anticipated. As a result, we could not include the
 1986 MSFC authorization in the finding that MSFC continued to authorize Rocketdyne’s rent-
 free use when commercial work began.

Management’s Comments: Reference is made to the December 1992, letter from the NASA
 Assistant Administrator for Procurement. MSFC’s lack of response to the actions requested by
 the Assistant Administrator for Procurement was caused by an apparent breakdown in
 communications regarding the letter. The MSFC Procurement Office correspondence logs and
 file records do not indicate that the letter was received by the MSFC Procurement Officer, the
 addressee. Moreover, the former MSFC Procurement Officer denied ever receiving such a
 letter.

Audit Response: Representatives of the MSFC Procurement Office told us that they had no
 record of the letter, and as management stated, the former MSFC Procurement Officer claimed
 never to have seen the letter. However, MSFC General Counsel’s Office files had a copy of the
 letter, as well as Rocketdyne’s Director of Contracts and Pricing, evidencing the actual issuance
 of the letter.




                                               31
Appendix G
                              REPORT DISTRIBUTION
National Aeronautics and Space Administration (NASA) Headquarters
Code A/Office of the Administrator
Code AI/Associate Deputy Administrator
Code AE/Chief Engineer
Code AF/Chief Technologist
Code AO/Chief Information Officer
Code B/Chief Financial Officer
Code C/Associate Administrator for Headquarters Operations
Code E/Associate Administrator for Equal Opportunity Programs
Code F/Associate Administrator for Human Resources and Education
Code G/General Counsel
Code H/Acting Associate Administrator for Procurement
Code I/Associate Administrator for External Relations
Code J/Associate Administrator for Management Systems and Facilities
Code JM/Director, Management Assessment Division
Code L/Associate Administrator for Legislative Affairs
Code M/Associate Administrator for Space Flight
Code P/Associate Administrator for Public Affairs
Code Q/Associate Administrator for Safety and Mission Assurance
Code R/Associate Administrator for Aeronautics and Space Transportation Technology
Code S/Associate Administrator for Space Flight
Code U/Associate Administrator for Life and Microgravity Sciences and Applications
Code W/Assistant Inspector General for Inspections, Administrative Investigations and
 Assessments
Code Y/Associate Administrator for Earth Science
Code Z/Acting Associate Administrator for Policy and Plans


NASA Field Installations
Director, Marshall Space Flight Center




                                              32
Appendix G (Continued)

NASA Offices of Inspector General
Ames Research Center
Dryden Flight Research Center
Goddard Space Flight Center
Jet Propulsion Laboratory
Lyndon B. Johnson Space Center
John F. Kennedy Space Center
Langley Research Center
Lewis Research Center
George C. Marshall Space Flight Center
John C. Stennis Space Center

Non-NASA Federal Organizations and Individuals
Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Budget Examiner, Energy Science Division, Office of Management and Budget
Associate Director, National Security and International Affairs Division, General Accounting
 Office
Special Counsel, House Subcommittee on National Security, International Affairs, and Criminal
 Justice
Professional Assistant, Senate Subcommittee on Science, Technology, and Space
Administrator, Office of Federal Procurement Policy
Defense Contract Audit Agency, Los Angeles Regional Office

Chairman and Ranking Minority Member - Congressional Committees and Subcommittees
Senate Committee on Appropriations
Senate Subcommittee on VA, HUD and Independent Agencies
Senate Committee on Commerce, Science and Transportation
Senate Subcommittee on Science, Technology and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD and Independent Agencies
House Committee on Government Reform and Oversight
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member
Honorable Pete Sessions, U.S. House of Representatives




                                              33
MAJOR CONTRIBUTORS TO THIS AUDIT

Chester A. Sipsock   Program Director, Financial and Environmental Management
                     Audits


Ellen J. Norris      Auditor-in-Charge, Jet Propulsion Laboratory


Fredrick E. Angle    Auditor, Marshall Space Flight Center
